        On October 30, 1997, ~r-
                                 CLOSEOUT FOR M97100039


 informed OIG that a *~ r o ~ o sreview
                          a
                                  al           A

 proposal's authors. The proposal in question is -entitled
                                                  " The PIS are Drs. -
                                                   of NSF's Division of 7-m
                                        raised auestions about the "ethics and integritv" of the
                                                                          =
                                                                          ''

                                                                          The review was
                                                                                            -




        The complainant alleged that "rather than responding to these [technical] criticisms, or
acknowledging errors, " members of the subjects' research group "assimilate the criticisms
and republish them as their own insights . . . without ever citing the original sources. " The
complainant noted an example in the proposal that allegedly illustrated his point. The example
was part of the "Overview and Research Objectives" section of the proposal, which explained
the theoretical grounding of the PIS' proposed empirical research and gave indications of the
relation of the ideas the PIS planned to develop and test to those in the scientific literature on
this topic. However, in the complainant's example, the ideas the subjects discussed were
represented in a way that neither credited them to other scientists nor clearly claimed them as
original to the subjects or their collaborators.

        In the complainant's example, the relevant ideas have a close logical connection to the
subjects' long standing research interests and previous published findings. It is acceptable to
modify an idea in response to other scientists' criticisms. Although including a citation in such
a situation might arguably be desirable, the alleged failure to do so in this case cannot be
considered misconduct in science.

       We concluded that there 'was insufficient substance to the complainant's allegation to
pursue this matter further. This inquiry is closed and no further action will be taken on this
case.




                                      page 1 of I
